<html>
<title> - U.S. COAST GUARD LICENSING AND DOCUMENTATION OF MERCHANT MARINES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
    U.S. COAST GUARD LICENSING AND DOCUMENTATION OF MERCHANT MARINES

=======================================================================

                                (109-91)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
30-661                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,Vice-  California
Chair                                MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Autin, Shull, Chief Operating Officer, SEACOR Marine, LLC.......    10
 Bone, Rear Admiral Craig E., Assistant Commandant for 
  Prevention, U.S. Coast Guard...................................     3
 Davis, Ronald, President Marine Engineers' Beneficial 
  Association and Executive Board Member, Maritime Trades 
  Department.....................................................    10
 Gedney, Captain Elizabeth, Director of Safety Security and Risk 
  Management, Passenger Vessel Association.......................    10
 Sause, Dale, President, Sause Brothers, Coos Bay, Oregon, and 
  Chairman of the Board, the American Waterways Operators........    10

          PREPARED STATEMENT SUBMITTED BY A MEMBER OF CONGRESS

Filner, Hon. Bob. of California..................................    42

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Autin, Shull....................................................    26
 Bone, Rear Admiral Craig E......................................    31
 Davis, Ronald...................................................    36
 Gedney, Captain Elizabeth.......................................    44
 Sause, Dale.....................................................    54


   U.S. COAST GUARD LICENSING AND DOCUMENTATION OF MERCHANT MARINERS

                              ----------                              


                        Thursday, July 20, 2006

        House of Representatives Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Coast Guard and Maritime Transportation, 
            Washington, D.C.
    The committee met, pursuant to call, at 10:10 a.m., in room 
2167, Rayburn House Office Building, Honorable Frank LoBiondo 
[Chairman of the committee] presiding.
    Mr. LoBiondo. Good morning. The Subcommittee will come to 
order.
    Today we are having an oversight hearing on the United 
States Coast Guard's Merchant Mariner Credentialing Program. 
This program helps ensure mariners have the experience, 
training, physical ability and character to serve on vessels. 
Since September 11th, the program has another important role: 
helping our Nation to know who is working on our waterways.
    The Coast Guard has had the responsibility for 
credentialing of merchant mariners for decades. However, the 
Service has recently been given substantially more duties to 
carry out the program. For example, the Oil Pollution Act of 
1990 introduced a drug testing program for applicants, as well 
as a requirement that applicants submit a check of the National 
Driver Register, so that a mariner's driving record could be 
examined.
    After September 11th, additional safety and screening 
procedures were put into place. There is now strict enforcement 
of the regulations concerning verifying the identity and 
nationality of applicants. Also, the merchant mariner document 
was replaced with a new card incorporating tamper-resistant and 
anti-counterfeiting features. It is apparent the evaluation 
process for mariner credential applications has become 
significantly more elaborate and time consuming for all 
involved, especially the Coast Guard. The Service has 
experienced a 25 percent increase over the past 10 years in the 
number of applications received annually.
    In fiscal year 2004, over 84,000 credentials were processed 
by the regional examination centers, which also had to collect 
and account for $7 million in user fees. Despite this increased 
workload, staffing levels have changed little since 1982, 
except for the addition of some contract employees in recent 
years. The lack of an increase in personnel commensurate with 
the increase in workload is very troubling. Mariners and 
industry rely on the Coast Guard to process mariners' 
applications quickly, because a mariner is not permitted to 
work without a valid credential. Any backlog could have a 
serious, in fact almost devastating effect, on the hard-working 
men and women, as well as our economy.
    Although the program does not have as high a profile with 
the public as the Service's search and rescue or port security 
missions, it is nevertheless just as important and very 
critical.
    I would like to thank the witnesses for coming this 
morning, and I look forward to your testimony. I am 
particularly interested in learning about the current status of 
the program, how the implementation of the TWIC card will 
affect the process and whether it will aggravate current 
backlogs. I also want to hear about the possible solutions to 
the problems.
    Admiral Bone, it is great to see you once again. I am sure 
your experiences as Captain of the Port in New York and New 
Jersey have served you extremely well. Congratulations and best 
of luck on your new job.
    I would note that given the extensive concerns of the 
witnesses on the second panel and their intent to express their 
concerns today, you clearly have your work cut out for you at 
this time. I would urge either you or a senior member of your 
staff to stay and to listen first-hand to what the second panel 
has to say. The Subcommittee will attempt to track this very 
carefully. Their concerns are longstanding and have a serious 
impact on the U.S. maritime industry.
    Mr. Taylor, would you like to say anything in opening up?
    Mr. Taylor. No, thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Boustany?
    Mr. Boustany. Thank you, Mr. Chairman, for holding this 
very important hearing. Admiral Bone, welcome. It is good to 
see you again. I want to thank you, Admiral Allen and the Coast 
Guard for the fine work that you continue to do.
    I am pleased also that in the second panel we are going to 
have Mr. Shull Autin, who is COO with SEACOR Marine, to testify 
before the Subcommittee today. SEACOR operates one of the 
world's largest fleets of diversified marine support vessels 
and provides vital services to the offshore oil and gas 
industry in the Gulf of Mexico. SEACOR has facilities located 
in my district, and I am proud to have Mr. Autin testify on 
behalf of the Offshore Marine Service Association this morning.
    Ensuring that the Coast Guard's mariner licensing and 
documentation program works efficiently is vital to maritime 
commerce in the Gulf of Mexico. Backlogs and delays in the 
processing of merchant mariner credentials not only impact 
those mariners who make their living in the Gulf of Mexico, but 
also the Nation as a whole that relies on the Gulf's offshore 
energy resources. One-third of our Nation's energy comes 
through Louisiana and our oil and gas industry is dependent on 
these supply vessels. They are the lifeline to our offshore 
energy supply.
    Hurricanes Katrina and Rita dealt a major blow to our oil 
and gas infrastructure in the Gulf of Mexico. The Coast Guard's 
New Orleans Regional Examination Center was all but destroyed, 
forcing lengthy delays in the processing and renewal of 
hundreds of mariner credentials, adding stress to a system that 
was already facing major backlogs before these storms.
    I can tell you, I dealt personally with a number of 
companies in Louisiana that were forced to operate in a state 
of flux for months, wondering if their mariners' licenses would 
expire. Mr. Chairman, I want to thank you for acknowledging 
this problem and including language in the 2006 Coast Guard 
authorization bill to accommodate the licensure of Gulf Coast 
mariners through the end of this year. I am eager to hear from 
Admiral Bone today regarding the Coast Guard's plan to take 
advantage of this provision and the impact it will have to help 
alleviate stress on the MLD program.
    I am told, however, that the New Orleans REC has received 
nearly double the number of applications this June as compared 
to last June. Yet they only have about half the staff necessary 
to process them. It is no secret that the U.S. Coast Guard was 
the shining star in an otherwise dismal sky in the immediate 
days after both these hurricanes.
    I have full faith and confidence in Admiral Thad Allen and 
Admiral Bone and the rest of the Coast Guard and the leadership 
that you all provide as we wait to see what the 2006 hurricane 
season will deliver. I am eager to work with the Coast Guard to 
address the delay in processing the merchant mariner 
credentials, so that we can make sure that maritime commerce 
continues to thrive in the Gulf of Mexico.
    Mr. Chairman, thank you, and I yield back.
    Mr. LoBiondo. Thank you, Mr. Boustany.
    Master Chief Coble.
    Mr. Coble. Thank you for the promotion, Mr. Chairman, but 
no opening statement.
    [Laughter.]
    Mr. Coble. It is good to have you all with us today.
    Mr. LoBiondo. Mr. Fortuno.
    Mr. Fortuno. Thank you, Mr. Chairman. Thank you for today's 
hearing. Welcome, Admiral Bone.
    As you know, for the insular areas, including Puerto Rico, 
the constant presence of the Coast Guard is of the utmost 
importance for our livelihood. So in that sense, I do have a 
keen interest in today's hearing and I welcome you again.
    Thank you, Mr. Chairman. I yield back.
    Mr. LoBiondo. Thank you, Mr. Fortuno.
    Admiral Bone, welcome. We are glad you could join us today. 
Please proceed.

 TESTIMONY OF REAR ADMIRAL CRAIG E. BONE, ASSISTANT COMMANDANT 
           FOR PREVENTION, UNITED STATES COAST GUARD

    Admiral Bone. Good afternoon, Chairman LoBiondo, Ranking 
Member Filner and distinguished members of the Committee. I am 
Rear Admiral Craig Bone, Assistant Commandant for Prevention. 
It is a pleasure to appear before you today to discuss the 
mariners' credentials and Coast Guard plans for improving the 
mariner licensing and documentation program.
    Over the past 15 years, the demand for services and the 
complexity of the mariner licensing and documentation program 
has grown and our mariners have not been provided the timely, 
efficient service they deserve when applying for mariner 
credentials. Based on several studies and discussions with 
various stakeholders, including the Merchant Marine Personnel 
Advisory Committee, maritime labor unions, Towing Safety 
Advisory Committee, National Offshore Safety Advisory 
Committee, committees which witnesses at today's hearing belong 
to, and with whom the Coast Guard has collaborated with on many 
safety, security and credentialing issue, it was determined 
that the public would be better served if processing all of the 
application for merchant mariner credentials were centralized.
    Accordingly, the Commandant approved a plan in March 2005 
to centralize most functions related to the issuance of 
credentials. The existing 17 regional exam centers will be 
reduced in size and limited in their responsibilities. The RECs 
will focus on providing direct customer services, such as 
testing, fingerprinting, identity verification, acceptance of 
application packages and verifying all the paperwork is in 
order, and then conducting oversight of approved training 
courses.
    The new centralized facility will be located in 
Martinsburg, West Virginia, and the first steps toward 
centralization, a 24 month process culminating in the summer of 
2008, have already begun. A temporary space with 42 Government 
and contractor personnel will begin operations next month. This 
detachment of the Coast Guard National Maritime Center will 
initially focus on processing all applications received in New 
Orleans. A second temporary space located in the Martinsburg 
area will begin operations in November and will be devoted 
toward expanding the centralized processing of applications. 
These actions alone should provide for a smoother transition 
with the least disruption and inconvenience to the public.
    The centralization effort has been fully funded and the 
Coast Guard is working with TSA to procure a permanent 
facility. Construction of the permanent facility is expected to 
be completed in August of 2007. REC New Orleans will be the 
first to relocate. As an interim step in the relocation, all 
existing applications held in backlog at REC New Orleans have 
been distributed to other RECs for processing.
    We have also directed the RECs to give the highest priority 
to processing applications from applicants who are currently 
employed in the industry and are renewing their credentials. 
Applications for upgrades of mariner qualifications or for 
entry level qualifications are given similar high priorities to 
ensure continued supply of credentialed mariners is available 
to the maritime industry.
    In an attempt to improve services, we will add additional 
contract personnel to augment the staffs of some RECs. To 
further assist RECs we are seeking to expand our capabilities 
through the use of Coast Guard auxiliarists and reservists. 
Specifically, they will be providing fingerprinting services, 
ensure identification of applicants and administer oaths in 
remote locations, thus reducing the need for some applicants to 
travel extensive distances to RECs.
    Along with the centralization of REC functions, we are also 
planning for the implementation of the Transportation Worker 
Identification Card, or TWIC. TWIC is a common biometric 
credential for maritime workers, including all merchant 
mariners requiring unescorted access to secure areas of port 
facilities and vessels. TWIC includes intelligence-based 
vetting upon enrollment, with perpetual vetting conducted to 
dynamically identify threats after card issuance.
    The Coast Guard is working with the Transportation Safety 
Administration, TSA, to develop a unified process for issuing 
credentials to reduce the burden on the public.
    In closing, the Coast Guard is actively taking steps to 
improve the merchant marine licensing and documentation 
program. I can tell you that I am personally committed to this 
and have the full support of the Commandant on this effort.
    Centralization of the application processing provides the 
ability to focus our efforts and gain economies of scale. 
Centralization will offer uniformity in interpretation of the 
regulation and help reduce backlogs and make certain that 
credentials are only issued to qualified persons. The 
implementation of TWIC will further strengthen our security 
efforts and help ensure the integrity of maritime credentials.
    I thank you for the opportunity to testify today. As 
requested, Captain Fink, the CEO of the National Maritime 
Center, will be staying to hear the second panel. I will be 
happy to answer any questions that the members have. Thank you, 
sir.
    Mr. LoBiondo. Mr. Coble, do you have questions?
    Mr. Coble. I have to go to another meeting.
    Mr. LoBiondo. You have to go to another meeting.
    Mr. Boustany?
    Mr. Boustany. Thank you, Mr. Chairman.
    Admiral Bone, as I mentioned in my opening statement, our 
2006 Coast Guard authorization bill provided the authority to 
extend licenses that were up for renewal for our mariners in 
the Gulf Coast who were impacted by the hurricanes. As a 
conferee, I pushed for this provision. It was our intent to 
help to make sure that no mariner loses his or her job while 
the application is being processed. I know it has been a tough 
situation. The Coast Guard has really performed admirably 
throughout this hurricane effort.
    Is the Coast Guard utilizing this new authority, and if 
not, when do you expect to do so, or do you expect to do so?
    Admiral Bone. First, Congressman, we appreciate the 
flexibility that Congress did provide, and we are going to 
exercise that. We are drafting the guidance out to the field 
and the direction to the mariners and to the organizations. 
Just as you put it, the surety of, while there is a backlog and 
while there is this transition, allowing to make sure that our 
mariners can be and remain employed is of highest priority as 
well. This will be coming out shortly. We will notify you both 
the notifications as well as put it on Home Port, and the 
procedures that mariners will use to be able to identify 
themselves as being eligible for this.
    Mr. Boustany. Thank you, Admiral. It has been 10 months 
since the hurricanes, and I still have mariners back in my 
State who are telling me that the system is plagued with delays 
and I know you are working hard to address this. We will 
continue to work with you and hopefully we can get some 
resolution to this.
    I know Coast Guard is moving forward, as you said, with the 
plan to centralize. Mariners in Louisiana have expressed the 
concern to me that the Coast Guard is going to get wrapped up 
in the details of the move and they are going to end up having 
customer service sacrificed in the process. Can you talk a 
little bit more about what assurances you can give to the 
mariners so that they will continue to receive that kind of 
quality service that they have come to know from the Coast 
Guard?
    Admiral Bone. Yes. What I would like to say, too, is that 
the quality of service will restore itself in the Coast Guard 
when it comes to merchant mariner documents. First off, we are 
reopening the storefront in New Orleans on the 9th of August. 
The personnel will be back in there and providing those 
services as I discussed before, really focused on the 
application process, the fingerprinting, the training centers, 
et cetera.
    At the same time, by the middle of August, the National 
Maritime Center will be moving 42 people, of which 20 or 30 are 
additional contract staff, to assist in the processing of 
applications and the evaluation of those applications. The 
backlog has already been distributed to other RECs and they 
will also assist in any other backlog that RECs would have as 
time would permit. The focus initially, to take care of New 
Orleans which has the most severe backlog, and as you said, has 
experienced the most disruptive costs and is also experiencing 
significant growth in the maritime environment at the same 
time.
    Mr. Boustany. Thank you.
    In industries where customer service is important, some 
companies have created advisory boards that provide inputs 
regarding levels of service and quality. Have you considered 
working with industry representatives in this sort of fashion?
    Admiral Bone. In fact, we work all the time with MERPAC, 
and actually the Advisory Committee for merchant personnel. And 
again, what the union says well, it is with the industry, 
different sector components. I can tell you that industry is 
not short of mentioning the issues and concerns, and quite 
often it is not what we are asking to be done, it is how we 
execute it. We absolutely need that continued dialogue, and we 
need to continue to hear and be responsive to the industry's 
issues.
    Mr. Boustany. Thank you. Maritime industry has indicated 
that they do not feel that they have adequate time to provide 
input on the TWIC proposal. I have heard from a number of 
Louisiana companies and their employees, I joined my colleagues 
from the Louisiana delegation and sent a letter to Secretary 
Chertoff and the Commandant seeking an extension of the comment 
period and to request a hearing in New Orleans so that more of 
the industry could voice their concerns.
    Our request on this was denied. Does this open the Coast 
Guard up to criticism that you are not willing to listen to 
industry concerns?
    Admiral Bone. Well, first off, the TWIC, we have received 
over 1,800, maybe even 1,900 comments on the record. We are 
still evaluating all those comments. I don't think the 
Administration has taken a position yet with regard to the next 
course of action.
    We want to make sure there is full consideration of those 
comments that are already received before a determination of 
next steps have been put in place. So I am not aware that TSA 
has made a statement in any way of where they are going with 
that regulation process. We continue to work with them, and we 
are examining all of these comments that we have received to 
date. So I wouldn't say that a determination has been made what 
the next step would be.
    Mr. Boustany. I see my time has expired. Admiral, thank you 
very much for your answers. I look forward to continuing the 
work with you as we try to resolve some of these issues.
    Admiral Bone. Thank you, Congressman.
    Mr. LoBiondo. Thank you. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. Admiral, I also want 
to really compliment the Coast Guard; what they did in the 
immediate aftermath of Katrina and the quick response and the 
leaning forward decisions that were made by a lot of people to 
get assets in the area where it needed to be, from places where 
it is less likely to be needed in those days.
    But to that point, I think it is fair to say the failure to 
reestablish your Eighth Coast District documentation office, to 
take this long, that is not where you want to be. And I have 
had some charter boat captains in the Mississippi Gulf Coast, 
and I would imagine the folks down in the bayou country are 
probably experiencing some serious problems. And again, let's 
try to put ourselves in those shoes. Those guys are offshore 
for two weeks, they are home, they want to see their family. 
The last thing they want to do is squander what little time 
they have on shore at an office that isn't set up. So I cannot 
encourage you enough to follow up on the great work you did in 
the immediate aftermath of Katrina on the documentation side. 
It is important.
    There are opportunities, unfortunately because of the BRAC 
Commission, I don't want to hear anybody say we need money for 
military construction. Because there are a lot of very nice 
buildings, some of which are brand new, available for you all 
to move into. I would be certainly willing to work with you on 
that. We have to get those offices up and running. If we are 
going to require those people to have those documents, then we 
need to be in a position to make the filling out of the forms 
and the taking the tests, it has to be easily accessible to the 
public.
    It does lead to an interesting question. My other committee 
is the Armed Services Committee, and I really, through my many 
years of association with some very smart people in the Defense 
Department, I am convinced that it is just a matter of time 
until there is an attack on the homeland, of some sort, a 
weapon of mass destruction, chemical, biological, maybe 
electromagnetic pulse. All of which could jeopardize, and I 
think what we saw in Katrina, an attack on the homeland is 
going to look a lot like Katrina. We are going to lose 
communications, electricity is going to be out.
    Which goes to my question, what sort of backup do you have 
for your data? I am told that your records in New Orleans East 
were destroyed. Well, there should have been a backup 
somewhere, and it should have been readily accessible in a much 
shorter period than 310 days that we have seen. Again, I am 
going to give you full credit. Your guys did the right thing in 
the aftermath of Katrina, when you had yeoman who normally are 
bookkeepers are rescuing people. You did the right thing then.
    But we have to get back to work now. So what kind of backup 
did you have available for those records that were in New 
Orleans East? And if you didn't have a backup, what kinds of 
plans are in place so that we don't get stung by this again? 
And again, I am probably oversensitive to the whole idea of an 
electromagnetic pulse and how it is going to fry everything 
electronic. And I am even aware, and it was in the Discovery 
Channel last night, there are folks out there who have the 
limited ability to do an EMP in this room. And so I am not 
talking out of shop. I am convinced we are going to see that.
    So how are you hardening your records for that inevitable 
scenario?
    Admiral Bone. First off, we do have the commitment to 
restore those services, just as you asked. We are going to 
begin that process again in August. We have in fact distributed 
those personnel in Memphis, Houston and I think that in order 
to support, but we know that is a long way to go from New 
Orleans, and even Morgan City.
    But in regard to your other question, which really comes to 
bear on was the backup, the reality for the licenses is the 
paper licenses were at the RECs. There was no imaging system 
and no other record, other than a data record. I am talking 
about a formal record of the documents. We are in fact putting 
into place an imaging system and we are starting with the New 
Orleans records in that imaging process as part of this, again, 
as we move forward and we utilize technology as part of the 
centralization process.
    Mr. Taylor. Is that effort funded?
    Admiral Bone. Yes. In the funding that Congress has 
provided us, this will be done. Again, over a period of time. 
It is not immediate.
    Mr. Taylor. What is your target date for implementation?
    Admiral Bone. Again, by 2008, as we move the RECs through 
and we move the work out, we will in fact be conducting the 
imaging on those licenses. The documents themselves, the MMDs 
themselves already have imaging being done centrally. But the 
licenses, which are again, a large number of documents, and the 
paperwork that went with those documents, were not provided 
that imaging background.
    So it is one of those, as you move from systemically, we 
are looking to do it as time allows and as resources allow. But 
initially, it makes sense to us to do it as part of that 
transition of the REC.
    Mr. Taylor. OK. Mr. Chairman, if you will permit.
    Mr. LoBiondo. Yes.
    Mr. Taylor. I was fortunate enough to attend the Military 
Times awards last week. I have to tell you, I had the 
opportunity to meet Petty Officer Jackson, I believe he is a 
yeoman second class. Any kid who is going to jump into the 
Industrial Canal in New Orleans to save a drowning policeman 
who asks for the opportunity to go to office candidate school, 
my two cents is, you guys would be crazy not to give that young 
man that opportunity. So that is my two cents.
    Admiral Bone. Thank you, sir.
    Mr. LoBiondo. Admiral Bone, let me pick up a little bit on 
questions that Mr. Boustany started with on the TWIC card. Once 
TWIC is implemented, and we are assuming that is going to 
happen some time in this century, merchant mariner credentials 
will not be issued until the mariner has a valid TWIC card. 
When is it estimated that the requirement will start? Do you 
have any idea?
    Admiral Bone. In fact, it is being done in parallel. As the 
TWIC card is put into place, when the TWIC card is put into 
place, there will be a parallel processing with the merchant 
mariner documents, so that in fact, a person can make 
application for a merchant mariner's document at the same time 
they make the application for the TWIC card. One doesn't have 
to follow the other in the processing.
    But the actual issuance of the merchant mariner document, 
that credential won't be actually issued to an individual until 
we are assured that that person has cleared the security 
background. They are interlinked, I guess, in that regard. 
Until then, we will continue to provide the security background 
checks on MMDs that we currently do. I think one of the things 
that may be of interest is, prior to this we used the old 
fingerprinting system. We now use live scan, which moves it 
from six to eight weeks to process fingerprints now to 
basically two days maximum to get the results back. So there is 
no reason that these, if someone is cleared well, that we 
shouldn't be able to process in a reasonable period of time.
    Mr. LoBiondo. Are you talking at all about a grace period 
planned after that date, so that mariners seeking renewal won't 
suddenly be surprised and unable to work? Or are you going to 
take that under advisement or assess it as it comes along?
    Admiral Bone. I think again, the merchant mariners 
themselves, all the current merchant mariners that have already 
had the background check done, they have had the background 
completed, that more than satisfies the TWIC card. So in that 
regard, those members themselves are already found to be in 
compliance with the background check. I guess I am not, the 
issue is new mariners are going to be fit into a different 
profile, because they haven't had that extensive background 
check completed yet. In the fact of a merchant mariner, they 
also have, as you said, the NDR check as well, being completed, 
as well as medical.
    Mr. LoBiondo. Any other panel members have any follow-ups 
for Admiral Bone?
    Admiral, we thank you very much. As some of you may have 
been able to tell, we have a series of votes that have been 
called. So we are going to go into recess until after the 
votes, then we will pick up with the second panel. The 
Committee is in recess.
    [Recess.]
    Mr. Boustany. [Presiding] The Subcommittee will now resume 
proceedings. We will call forth the second panel of witnesses. 
Gentlemen and ladies, if you will please come forward.
    Welcome. It is good to see you all. We are pleased to have 
a very good panel here of four witness. I would like to welcome 
Mr. Shull Autin, Chief Operating Officer with SEACOR Marine, 
LLC, testifying on behalf of the Offshore Marine Service 
Association. Mr. Baird, would you like to proceed?
    Mr. Baird. Mr. Chairman, I would like to welcome Dale 
Sause, head of Sause Brothers Marine, who is from Coos Bay, 
Oregon, and also Captain Gedney, who happens to be the mother 
of one of my former staff members. So I have two good friends 
here, and I look forward very much to their testimony. I have 
promised them softball questions.
    [Laughter.]
    Mr. Boustany. We also have Mr. Ron Davis, President of the 
Marine Engineers' Beneficial Association.
    I am sure most of you, or all of you, are aware of the 
process. We will have a five minute period of time for each of 
you to give your testimony. You can submit extended statements 
into the record. I ask you to keep to that five minute period, 
and then we will go into questioning.
    You have a light in front of you which will be green. When 
you get down to yellow it is one minute, and then when it turns 
red, your time is up. So I will ask you to try to observe that 
five minute rule.
    With that, Mr. Autin, you may begin.

   TESTIMONY OF SHULL AUTIN, CHIEF OPERATING OFFICER, SEACOR 
 MARINE, LLC; DALE SAUSE, PRESIDENT, SAUSE BROTHERS, COOS BAY, 
   OREGON, AND CHAIRMAN OF THE BOARD, THE AMERICAN WATERWAYS 
OPERATORS; RONALD DAVIS, PRESIDENT MARINE ENGINEERS' BENEFICIAL 
    ASSOCIATION AND EXECUTIVE BOARD MEMBER, MARITIME TRADES 
   DEPARTMENT; CAPTAIN ELIZABETH GEDNEY, DIRECTOR OF SAFETY 
   SECURITY AND RISK MANAGEMENT, PASSENGER VESSEL ASSOCIATION

    Mr. Autin. Good morning. Thank you first for giving us the 
opportunity to testify today.
    My name is Shull Autin. I am the Chief Operating Officer of 
SEACOR Marine. I am also representing the Offshore Marine 
Service Association.
    We share the Coast Guard's belief that the human factor is 
critical to maritime safety and that licensing is one of the 
most important ways that we ensure that our managers are up to 
the task. Unfortunately, ever since the hurricanes, problems 
with the licensing and documentation process on the Gulf Coast 
have hurt our ability to attract the best into our business.
    We have surveyed OMSA members and we have found out that 
first, it can take up to three to five months for a newly hired 
crew member to receive an entry level merchant mariner 
document. Obtaining an upgrade in a license can also take up to 
five months. A license renewal, which should be a very simple 
process, may take six weeks to four months to complete. 
Anything involving a medical waiver may take up to a year from 
nine months.
    This creates some terrible obstacles for American workers 
and for our companies. How can we hope to attract the best in 
our industry if we can't actually put them to work for five 
months after they have been hired? How can we tell our long-
term employees they can't work because their licenses have 
expired while they were waiting for them to be renewed?
    We believe that the Coast Guard has worked energetically to 
overcome the logistical challenges caused by the loss of the 
New Orleans Regional Exam Center and the destruction of 
thousands of mariner files. However, given the extreme delays 
in processing applications, it does not appear that the RECs 
have received the level of resources that they need to make the 
minimal levels of customer service for the American mariners.
    The Coast Guard's plan to reorganize the licensing process 
should help in the long run. But we really need to go into that 
process with our eyes open. Even the most successful private 
sector reorganizations frequently produce six months of 
disruption before the benefit emerges. And I can attest to 
that.
    We have three suggestions. First, Congress gave the Coast 
Guard the authority to extend mariners' licenses that are up 
for renewal. We think the Coast Guard should use this power to 
help keep mariners on the job and to help clear up the backlog 
in other applications.
    Second, we feel that an expansion of a program called the 
Streamline Evaluation Process, or SEP, should be done 
nationwide. This has been very successful in a pilot project of 
the Houston REC. Under SEP, companies take responsibility for 
making sure that their mariners' applications are error-free 
and letter perfect before they are ever sent into the Coast 
Guard. The Coast Guard is then able to expedite these 
applications and process them with a minimal amount of delay.
    Third, we feel that the application itself needs to be 
simplified. The Coast Guard has reported that between 50 and 80 
percent of all applications that come in directly from mariners 
contain errors or omissions that slow down the process. 
Clearly, our industry needs to do what it can to cut down on 
mistakes. But if nearly eight of out ten mariners can't 
successfully complete the application, maybe the application 
needs to be simplified.
    In closing, let me also say that the proposed plan for the 
Transportation Worker Identification Cards is of great concern 
to the entire maritime industry. We suggest that Congress 
mandates that there will be one application, one background 
check and one reasonable fee for both the TWIC and the Coast 
Guard documents.
    We also urge the agencies to phase in TWIC so the Coast 
Guard National Maritime Center reorganization can be 
successfully completed before mariners are required to obtain a 
TWIC. This can be done without threatening security, because 
mariners already undergo a background check that is more 
thorough than the proposed TWIC process. This would have the 
added benefit of reducing the total number of American workers 
that would be in the initial implementation of TWIC.
    We consider the Coast Guard to be our close partners in 
safety, and we share their view on the importance of licensing 
and documentation. But we feel that the U.S. mariner needs to 
maintain a high level of professionalism and the ability that 
has allowed us to operate safely and securely is also 
important.
    I very much appreciate having this opportunity to testify 
today, and I would be happy to answer any questions that you 
may have.
    Mr. Boustany. Thank you very much, Mr. Autin. We appreciate 
your testimony.
    Mr. Sause, you may proceed. Thank you.
    Mr. Sause. Good afternoon, Mr. Chairman and members of the 
Subcommittee. Thank you for the opportunity to appear before 
you this afternoon in my capacity as Chairman of the Board of 
the American Waterways Operators.
    In my day job, I am President of Sause Brothers, 
headquartered in Coos Bay, Oregon. We are a family towing 
company, carrying forest products, building materials and 
petroleum to and from Alaska and Hawaii and up and down the 
U.S. west coast. We employ over 500 people, including 300 
mariners who crew our vessels. My family has been in the marine 
transportation business since 1937.
    Although I am testifying today on behalf of AWO member 
companies, I feel that I am here to speak also on behalf of the 
more than 30,000 mariners who work in our industry. These 
dedicated individuals are quite simply indispensable, both to 
our companies and to our Country. The licensing issues that we 
will discuss today affect not only the ability of AWO companies 
to operate vessels, but more importantly, the ability of these 
men and women to do their jobs and to provide for their 
families.
    Mr. Chairman, this hearing is very timely. The towing 
industry is facing a critical shortage of vessel personnel. We 
are actively seeking ways to address and solve this personnel 
shortage, because the stakes are very high. Quite simply, 
without crews to man our vessels, we are out of business.
    It is true the Coast Guard licensing system did not create 
this personnel shortage. However, it can and does exacerbate a 
situation that is reaching crisis proportions. The lengthy 
delays, bureaucratic quagmires and enormous backlogs at the 
Coast Guard regional examination centers are not just 
unpleasant statistics to us. They are the difference between 
working and not working, operating a vessel or tying it up.
    When I talk to AWO members around the Country about this 
issue, I am struck by the emotional intensity of their 
response. People are frustrated, they are angry, they feel 
devalued. They wonder, if our work is as important as we say it 
is, why can't we establish a simple, efficient system for 
processing the documents that mariners need to do their jobs?
    In many parts of the Country, delays have gotten so bad 
that the Coast Guard routinely advises mariners to submit 
renewal applications a full year before their licenses expire. 
The system is broken. A fix is desperately needed and long 
overdue.
    My formal statements detail the difficulties that AWO 
members are experiencing as their crews engage in the licensing 
process. As those examples demonstrate, Mr. Chairman, the 
current licensing system is in dire need of better processes, 
better technology, better staffing and more uniform application 
of licensing requirements and medical standards. We believe 
that there are several actions that can be taken.
    First, the Coast Guard has begun to implement a plan to 
consolidate the processing of licenses in one national center. 
This overhaul has been a long time coming, and AWO is pleased 
that the agency is finally moving forward to implement these 
needed changes.
    Second, in May the Coast Guard issued a notice of proposed 
rulemaking that would consolidate and streamline the process 
for obtaining the merchant mariner credential. AWO believes 
that many of the features of the proposed rule will have a 
positive impact on the licensing system.
    Third, the Coast Guard should move quickly to make common 
sense changes to the licensing regulations for towing vessel 
officers as recommended by the Towing Safety Advisor Committee 
in their October 2005 report, so that the pipeline of future 
wheelhouse personnel coming into the towing industry is not 
shut off.
    Fourth, we should address license creep. A mariner should 
be able to submit an application for renewal up to 12 months 
before his existing license expires and the renewal should 
become effective at the expiration of the full term of his 
existing license.
    Mr. Chairman, if we can accomplish all four of these 
things, we will have gone a long ways toward improving the 
Coast Guard licensing system and reducing the deep frustration 
to so many in our industry feel today. But we will still be 
facing a vessel personnel shortage that threatens the viability 
of a critical segment of our Nation's transportation system.
    We would ask Congress and the Coast Guard to recognize this 
and evaluate all of the proposed legislation and regulation 
that comes before you through the prism of personnel shortage 
problems. We would ask that you ask yourselves how would this 
proposal impact the ability of individuals to work in the 
maritime industry or maritime employers to crew their vessels. 
Will this action help the situation or make it worse? At a 
minimum, our goal should be to do no harm.
    I can think of no clearer example of the need for this kind 
of harm analysis than the TWIC regulations recently proposed by 
the Coast Guard and TSA. The new proposal is devastating. AWO 
has characterized it as a blunt instrument that will impose 
substantial hardship on mariners and the companies that employ 
them. Its worst impact will be the serious barriers that it 
erects to bringing new mariners into the industry in a timely 
way.
    We have therefore proposed that the final rule include an 
interim work provision for new hires, allowing new employees to 
work aboard a vessel on a probationary basis until the TWIC 
application is either granted or denied. This would address the 
need of companies to crew their vessels in a timely manner and 
the need of mariners to begin earning a living. It would also 
avoid the serious disruptions to the flow of commerce that 
could result if companies were forced to lay up vessels because 
of the delays in obtaining TWICs.
    In summary, Mr. Chairman, the current state of mariner 
licensing, with lengthy delays and burdensome requirements on 
the mariners themselves, is exacerbating an already difficult 
personnel shortage situation facing the maritime industry. The 
Coast Guard is taking some steps to alleviate this. AWO and its 
member companies stand ready to work with this Committee and 
the Coast Guard to ensure high standards of safety and security 
while keeping mariners working, vessels moving and the commerce 
of the United States flowing.
    Thank you very much.
    Mr. Boustany. Thank you for your testimony, Mr. Sause.
    Mr. Davis, you may proceed.
    Mr. Davis. Thank you, Mr. Chairman and distinguished 
members of the Subcommittee, for offering maritime labor the 
opportunity to discuss the unique issues that our members face 
in regard to mariner credentialing. I ask that our written 
statement be submitted into the hearing record.
    My name is Ron Davis, and I am President of Marine 
Engineers' Beneficial Association. Today I am speaking on 
behalf of maritime labor as an executive board member of the 
Maritime Trades Department of the AFL-CIO. MTD represents 5 
million workers in the maritime trades. These comments reflect 
the opinions of the seagoing maritime unions, including MEBA, 
the Seafarers' International Union of North America and its 
affiliates, as well as the International Organization of 
Masters, Mates and Pilots and the American Maritime Officers.
    On a personal note, I come from a long line of merchant 
seaman, with family members sailing in both licensed and 
unlicensed capabilities. I have been a licensed mariner for 
almost 30 years. I originally began my seagoing career in the 
U.S. Navy, where I served during Vietnam. Following my service, 
I attended the MEBA Engineering School, where I sailed as an 
unlicensed seaman, then earned my license. I continued my 
career for the next 20 years, moving up through the various 
billets. I currently hold a chief engineer steam and motor 
license, which coincidentally is up for renewal as we speak.
    My comments today can be briefly summarized in five major 
points. First, the current process for credentialing mariners 
can be improved by increasing funding to the Coast Guard 
specifically for credentialing, allowing them to continue their 
efforts to centralize data and systems to speed up mariner 
document processing.
    Second, in regards to future changes in mariner 
credentialing and the creation of the Transportation Worker 
Identification Credential, the Department of Homeland Security 
should allow the existing U.S. merchant mariner document to 
serve as both the TWIC and a mariner credential for the purpose 
of identification and qualifications held by the mariner. 
Essentially, we propose keeping the MMD as is with the 
exception of adding a biometric identifier as mandated in the 
MTSA Act of 2002.
    Third, licensed deck and engine officers should receive a 
license that can be displayed onboard vessels for inspection 
purposes. Fourth, the U.S. Coast Guard should continue to be 
the sole agency responsible for vetting and credentialing 
merchant mariners. And fifth, our proposed revised MMD should 
allow mariners access to their vessels docked at any port 
facility in the United States.
    The members of our maritime unions serve in all aspects of 
the merchant marine. As a result, we work very closely with the 
Coast Guard on nearly every maritime issue. Without the 
dedication, hard work and patriotism that the Coast Guard 
demonstrates, the job would be much more difficult. I am 
pleased to say that maritime labor and the Coast Guard enjoy a 
very professional partnership.
    The primary concerns seafarers have regarding the current 
credentialing process is the time factor. The Coast Guard has 
taken steps to address this concern. Recently, they have begun 
allowing credentials to be processed in regional exam centers 
outside the mariners' immediate area. This has been helpful in 
dealing with the backlog of MMDs.
    In addition, in August the New Orleans REC will reopen. It 
is the largest and busiest center in the Country. We feel that 
increased funding for the Coast Guard and a focus on increasing 
the speed of the credentialing process through the hiring of 
more personnel, the encouragement of document and data 
centralization and the development of best practices would go a 
long way to removing any inefficiencies in the current system.
    DHS recently issued a notice of proposed rulemaking to 
streamline and consolidate the current merchant mariner 
documents into one merchant mariner credential. Maritime labor 
disagrees with the consolidation of merchant mariner documents. 
We believe that any issues with the current MMD can be resolved 
without requiring a complete revamping of the credentialing 
process.
    For instance, in order to comply with the requirements of 
MTSA, a biometric identifier should be added to the current 
mariner document, and an officer should still receive a license 
for the purpose of displaying and verifying their 
qualifications. The license will be posted and open for 
inspection on any vessel.
    Requiring members to obtain both an MMD and a TWIC adds an 
unnecessary layer of bureaucracy to the current system. Two 
background checks, one for an MMD and one for a TWIC, is 
expensive, repetitive and wasteful. We strongly recommend that 
the TWIC and MMD be combined so that mariners would generally 
need only one document containing identification and 
qualifications.
    Maritime labor proposes there should be only one background 
check that mariners need to go through. And as Admiral Bone 
said earlier today, the Coast Guard background check now 
exceeds the TWIC requirements. It is important to note that DHS 
recognizes the proposed rule that credentialed mariners pose 
less of a security risk due to successful completion of 
security and safety background checks. They have been 
identified as a population who could potentially be lower on 
the priority list for the receipt of TWICs.
    The Coast Guard already performs one of the most in-depth 
background checks for civilian employment. We firmly believe 
the Coast Guard should continue to perform this role. TSA 
should not play a role in mariner vetting and credentialing. 
They have no institutional experience with the unique issues 
mariners face. The Coast Guard does. TSA will have its hands 
full overseeing the documentation for port workers, who were 
never required to obtain a Federal identification card in the 
past.
    There is also a problem with mariners gaining access to 
their vessels through port facilities in some States. We 
strongly urge Federal supremacy in regards to all mariner 
identification documents. Notwithstanding rights of individual 
States, the federally-issued MMD should be accepted for 
entrance into any port in the United States. If a mariner is 
thoroughly vetted and cleared by the Coast Guard to work aboard 
a vessel, then it only makes sense the mariner should have 
access to the vessel through the port facility.
    Thank you.
    Mr. Boustany. We thank you for that testimony, Mr. Davis.
    Captain Gedney, you may now proceed.
    Captain Gedney. Thank you, Mr. Chairman and members of the 
Subcommittee. I am Captain Beth Gedney, Director of Safety, 
Security and Risk Management for the Passenger Vessel 
Association. PVA is the national trade association for U.S.-
flag passenger vessels of all types.
    PVA currently has more than 600 vessel and associate 
members. Some of those members include Cape May Lewis Ferry, 
Ship Island Excursions in Gulfport, Mississippi, Puerto Rico 
Ports Authority and Washington State Ferries, for example. PVA 
member vessels are operated by Coast Guard licensed officers. 
In addition, the deck hands of many of our vessels have 
merchant mariner documents.
    The individuals who work on U.S.-flag small passenger 
vessels must be able to rely on professional, courteous and 
prompt service at the Coast Guard regional exam centers when 
they seek to obtain or renew their Coast Guard credential. PVA 
vessel member companies need a smooth functioning Coast Guard 
licensing process so that they can put their employees to work 
quickly and keep them working. Many of our members rely heavily 
on summer or temporary employees who they frequently hire with 
very short lead time.
    For too many years, our members have reported the quality 
of service at many RECs has been unacceptable. At too many 
RECs, processing time takes weeks and months. Applications and 
supporting documents, far too often, are lost by REC employees, 
and the burden is then placed on the applicant to supply 
duplicates. Inquiries by phone are impossible because automated 
phone systems sometimes tell the caller that the mailboxes are 
full. If one is able to leave a message, calls are not 
returned. Counter service to walk-in applicants is not customer 
friendly.
    These problems are not a function of increased emphasis on 
security after September 11th, 2001, nor did they arise after 
the hurricane flooded the New Orleans REC. These developments 
have made the problems worse, but they are not the root cause. 
My own effort to renew my license illustrates the deficiencies 
of the process. I drove the 75 miles to apply in person to 
renew my license at the Baltimore REC. The staff refused to 
credit my extensive marine experience, even though it had 
always been perfectly acceptable to the REC in Seattle, where I 
had worked previously. Instead, a take-home test was required.
    I subsequently mailed all required documents. There was no 
special circumstances or complicating factors. I didn't need a 
medical waiver and I didn't have a criminal record.
    My licensing user fee was immediately collected, but over 
the next eight months, I received no word from the Baltimore 
REC and my many inquiries received no reply. Last November, I 
described my experience to the head of the Charleston, South 
Carolina, REC whom I happened to meet at a conference. Two days 
later, my license arrived, dated November 1st, nearly eight 
months after the completed application was submitted. I have to 
assume the Charleston REC chief had communicated details of my 
case to Baltimore.
    But more than 16 months after my completed application, I 
have never received the companion STCW documents. I still 
cannot sail on ocean voyages.
    Plenty of other mariners have their own horror stories. How 
can such poor service be justified or tolerated, especially 
when the lack of a license or document can result in a mariner 
not being able to work? The basic problem is the Coast Guard 
has never given licensing the priority it deserves. Coast Guard 
has consistently failed to provide the funding, personnel and 
training needed to make all RECs function well.
    Licensing and documentation is simply too far down the 
Coast Guard's list of priorities. This is a disgrace, because 
this is the one Coast Guard function with which nearly every 
mariner interacts. Compounding the problem, of course, of 
quality service is the new Coast Guard policy requiring the 
mariner to initiate all credential transactions by means of an 
in-person visit to an REC. Under this policy, many mariners 
must travel hundreds of miles to a distant REC to undertake the 
credentialing process.
    Attached to my written testimony is an article written by 
the PVA's past president who writes of his 1,000 mile two day 
road trip from northeastern Wisconsin to the Toledo, Ohio REC 
to renew his captain's license.
    Finally, proposed rules on TWICs and merchant mariner 
credentials will add even more delays. A mariner will have to 
first apply for and receive a TWIC from a TSA contractor with 
an estimated wait of between 30 and 60 days, before the Coast 
Guard will process the application for a merchant mariner 
credential. These documents should be processed concurrently, 
not sequentially.
    To the individual mariner and the vessel operating 
companies that want to hire an employee in a timely fashion, 
the REC is the face of the Coast Guard. By failing to allocate 
the necessary resources to enable better professionalism and 
customer service, the Coast Guard, as an organization, has been 
indifferent to, if not hostile to, the needs of American 
citizens who work in the maritime industry. The Passenger 
Vessel Association urges Congress to force the Coast Guard to 
upgrade its performance.
    The Subcommittee should ask the GAO to undertake a review 
and analysis of the Coast Guard's mariner licensing and 
documentation program, including an analysis as to whether the 
program would be better if it were moved from the Coast Guard 
to the U.S. Department of Transportation. Thank you.
    Mr. Boustany. We thank you for your testimony, Captain 
Gedney.
    We will start the questioning now, and we are all aware 
that one of the biggest challenges to the maritime industry is 
obtaining mariners to operate the vessels. What is the average 
delay for entry level mariners to get their credentials, and 
how does this compare to before Hurricanes Katrina and Rita? I 
welcome any of you to answer that.
    Captain Gedney. In my experience, I spoke with Cape May 
Lewis Ferry just this week. To get an entry level mariner in 
right now it is taking from five to six weeks. They are saying 
that in their very competitive employment market, which most of 
us are experiencing, I believe, the applicant is long gone 
before the six weeks are over and they are working for someone 
else. Our employees are competing with restaurants and the 
entertainment facilities more than with other maritime 
employers. So it is I think particularly crucial for our 
industry.
    Mr. Boustany. Thank you, Captain Gedney.
    Mr. Autin. In the Offshore Marine Services, we are seeing 
in some cases as much from three to five months. We are 
experiencing the same thing, people are not getting involved in 
our industry, because the time restraints are too long to get 
an entry level document, and they are going elsewhere, and we 
are not breeding the future mariner that is going to run one of 
our vessels.
    Mr. Boustany. Mr. Sause?
    Mr. Sause. Our experience on the west coast mirrors these 
other examples. My son just went through a replacement 
documentation process that took over 90 days just to simply 
replace his MMD before he could go back. So we are seeing long, 
long delay times, anywhere from six to eight to twelve week 
periods to process.
    Mr. Boustany. Mr. Davis, do you have any comments on that?
    Mr. Davis. No.
    Mr. Boustany. Thank you.
    What other factors are contributing to the shortage of 
mariners, besides this? Are there other factors that you all 
see? What legislative changes might you propose that we 
undertake?
    Mr. Autin. As far as processing mariners through the 
system?
    Mr. Boustany. Yes.
    Mr. Autin. Well, one of the things, besides the other areas 
that we talk about, we feel that if the entire process of 
documentation and licensing could be done quicker, then we 
could get people through the system. Also, in looking 
specifically at the problems that we are facing with the 
renewal process, it should be very easy and efficient to renew 
a license, and it is not. It is our understanding that looking 
at the application between signatures and initials, there are 
some 11 blanks that need to be initialized. So we think just by 
simplifying that process that it could work.
    Part of what Congress has done in the past has allowed the 
Coast Guard to give extensions, but the Coast Guard really 
hasn't relied on those extensions much.
    Mr. Boustany. Thank you.
    Captain Gedney. If I could, Mr. Chairman.
    Mr. Boustany. Yes, please.
    Captain Gedney. I believe a temporary document would go a 
long way to help, something where once an applicant has 
applied, some way for that applicant to get to work while they 
wait for the full process. And certainly as TWIC comes forward, 
that will become more important.
    Another issue that is a problem for mariners is what we 
call license creep. You have heard the panel here say that 
their mariners are applying up to a year in advance. Then what 
happens is if your package does move through quickly, you end 
up losing that year on your license. A statutory change that I 
think the Coast Guard would appreciate as well would be the 
ability to date the new license the day your old license 
expires. Then you would get the full five year viability out of 
every document.
    Mr. Boustany. Could any of you highlight common errors made 
by mariners when applying for their credentials? Is there a 
common thread there?
    Mr. Autin. One of them deals with the signature and the 
initial process being 11 different areas are required. It is 
our understanding from the Coast Guard, if any particular area 
is not signed correctly or is not signed, that will stop the 
process from going through. That is one example.
    Mr. Boustany. Are there any application form changes that 
you would recommend that might improve the process and reduce 
errors?
    Captain Gedney. I think the application could indeed be 
renewed. Having to sign for every attestation on the document 
is certainly a problem. But I know the Coast Guard tells us 
that this is an 80 percent error rate. But mariners have been 
presenting themselves in person. We haven't been doing mail-in 
applications for over two years now. So I don't understand how, 
if a mariner is at the counter with their documents and 
everything is being checked before they leave the counter how 
it can still be the mariner's fault that that form is 
incomplete. I am hesitant that there are other issues.
    Mr. Boustany. Thank you. Anyone else?
    Mr. Davis. Yes. I don't disagree with that, but basically I 
also have run into many people, including myself, in the 
process of renewal, where you do leave out a form or a piece of 
paper or something along those lines. And then the feedback or 
the time spent basically of being informed by the Coast Guard 
that there is something missing, there is a delay in that.
    But I also think that it is important to focus on the TWIC 
aspect here, in that with these problems that these people are 
stating here, currently what is going on, if you add the TWIC 
on top of that, I think that the problems are going to be 
significantly more increased.
    Mr. Boustany. Thank you, Mr. Davis.
    Mr. Autin. One additional comment, if I may.
    Mr. Boustany. Yes.
    Mr. Autin. As a specific example, one of the requirements 
on the application is that the individual applicant has to 
attest that they do not have a past criminal record. This is 
after the background check is conducted. So the information is 
already available to the examiner at the time.
    Mr. Boustany. Thank you very much. My time has expired.
    Mr. Filner?
    Mr. Filner. Thank you, Mr. Chairman. I ask that my opening 
statement be made part of the record.
    Mr. Boustany. Without objection, so ordered.
    Mr. Filner. As I listened to all of you, you have a common 
testimony, basically. Common sense recommendations. I assume, 
and they have been going on for some time. I am just wondering 
what your reaction has been when you give these same 
suggestions to the Coast Guard. I think you are on an advisory 
committee, Captain. It just seems to me these should not have 
to be talked about here. These are easy things to change. I 
don't know if you want to respond to this. But I mean, they 
either have a lack of resources or they are mismanaged or they 
have no culture of customer service or some combination of all 
those.
    What has been your experience when you make these 
suggestions, and what do you think we can do in the policy 
matter of changing that?
    Captain Gedney. I think that certainly the REC employees 
are hard-working, diligent, subject matter experts. But there 
is definitely a disconnect when the mariner is across the 
counter. And I think the REC employees are doing the best they 
can with the assets that they have available. But as I said in 
my testimony, I don't believe that the highest level, the 
licensing program is a priority. I think that it needs more 
personnel and probably like everyone else, it needs more 
funding.
    Mr. Filner. How has the management responded to these 
requests? I am sure you have made these before your testimony 
today.
    Captain Gedney. We certainly have.
    Mr. Filner. What has happened to them?
    Captain Gedney. As problem areas have come to our attention 
and we discussed with the Coast Guard, the Coast Guard has 
responded by adding auxiliary personnel. They have added what 
they call tiger teams, so that extra personnel can go into 
these problem RECs and assist. But the problem is, when the 
extra personnel and the tiger team go away, the backup goes 
right back up again.
    Mr. Autin. One of the things, the Coast Guard has responded 
in looking at reorganization and will reorganize. We really 
feel that the reorganization is going to help when it occurs. 
But from this point in the interim to the time that not only 
the reorganization occurs, but the reorganization is effective, 
that is the time period that we are looking at. Because we are 
at a point now where mariners are sitting at home, after 
picking this livelihood as their career, and unable to come to 
work because of the application process or because of the 
renewal process.
    So we really feel that the work that is being put in by the 
Coast Guard in the future is definitely going to pay off. It is 
to get us from that point back to this point, or from this 
point back to that point. One of the specific things that we 
think can be done is the pilot program with the streamline 
evaluation process that has worked well selectively in Houston. 
But each REC has operated separately and there is not much 
going on to expand that project throughout the RECs.
    Mr. Filner. I missed the opening panel. Did the Admiral 
show recognition that these were problems? Is there an 
understanding that there are problems?
    Mr. Davis. Congressman, if I could. In my conversations 
with the Admiral, he recognizes to me basically that he 
understands there are problems. But he feels that they are on 
their way to some solutions with that.
    I think we have seen some positive results of this. We have 
seen essentially thousands of unlicensed seafarers that are 
going to sea for the first time on cruise ships in Hawaii that 
have, they were processing all their documentation through 
Baltimore, because that is where the maritime union schools are 
closest to, is the Baltimore REC. What the Coast Guard has done 
to help out, basically, is they have changed their procedure, 
and they have taken, when they have received these forms in 
Baltimore, they have decided that they have other RECs around 
the Country that are not as overwhelmed, and they are sending 
them out to other ones in different parts of the Country.
    In addition to that, I guess they are setting up a central 
location in West Virginia, I believe, to begin processing at 
all one place to get consistency. So my response to that would 
be that we have seen some significant improvement and 
significant cooperation from the Coast Guard in recent times.
    Mr. Filner. Well, this is not rocket science. We ought to 
be able to do this. Mr. Chairman, there is always a reluctance 
to micromanage. But given the widespread complaints that have 
taken place for so long, we may want to include in legislation 
mandated response times. And enforce that. If your unit can't 
do that, you don't get promoted or you don't get a pay raise. 
You may not even be able to take a collector user fee unless 
you get it back to people on time.
    Captain, I hope you will take it back to the Admiral that I 
have dealt with many bureaucracies at different levels of 
Government. The only way a policy board has much effect is if 
it mandates accountability standards. You find a way to do it 
in a week or two weeks, or you are out. We have to say stuff 
like that, I think, in our legislation. Because this stuff, it 
is so reasonable.
    All you are doing is asking for common sense stuff that any 
organization should be able to handle. If they don't handle it 
with the resources they have, tell us what resources they need. 
I mean, they ask for $50 million less, I think, in that safety 
budget than they did last year. Clearly, they are saying to us 
that they don't need the resources.
    But I think we have to look at some accountability 
standards and time lines and reporting back here in a way that 
helps these people who are just trying to do their job. The 
working people, you are just trying to run a business. And it 
depends all on the Government bureaucracy that we should be 
able to mandate responsiveness to you.
    Thank you, Mr. Chairman.
    Mr. Boustany. Mr. Taylor?
    Mr. Taylor. Thank you, Mr. Chairman.
    Captain, would it be inappropriate to call on you? Are you 
familiar with the licensing process? I know that not everyone 
in Coast Guard--would you mind coming to the table for a 
second? Please, these 53 year old eyes cannot read your name 
tag.
    Mr. Boustany. Mr. Taylor, he is not a witness in this 
panel.
    Mr. Taylor. I realize, sir, but I am a former Coast Guard 
and I am going to be very respectful of the Captain. There are 
some questions that I do think--if I may.
    Captain, I am just curious, if you could pinpoint for the 
Committee some of the things that you think are slowing down 
the process, based on your experience? I think that is a very 
fair question.
    Captain Fink. There are many vacancies that
    Mr. Boustany. Captain, let me ask you to refrain for a 
moment until we resolve this. I hate to be a thorn in your 
side, but the gentleman is not a witness in this panel. And we 
should proceed with the questioning of the witnesses at this 
time.
    Mr. Taylor. Mr. Chairman, if I may, I have been granted 
five minutes, the gentleman is here, the Coast Guard sent him 
here. He may be familiar with the problem, and I think that 
these gentlemen have outlined some problems. The Admiral 
touched on some problems. If someone knows what in particular 
is causing these problems, then I think we have a duty to the 
taxpayer to try to address it right now.
    Mr. Filner. If the gentleman would yield, I would support 
Mr. Taylor's request.
    Mr. Taylor. You and I have similar constituents. All of 
them are finding that many of them lost their documents in the 
storm, they lost their vessel documents in the storm, they are 
having great frustration in replacing those documents. If there 
is something the Captain can tell us to enlighten this 
Committee, then heck, we have a responsibility to try to find 
out what that is.
    Mr. Filner. If I am not mistaken, Mr. Chairman, the Admiral 
said that, I think explicitly, that the Captain would be here 
to listen to things. And I assume that he knows, that he has 
some expertise.
    Mr. Boustany. Well, I think the appropriate thing would be 
to have Admiral Bone at least notified of this intent.
    Mr. Taylor. OK.
    Mr. Boustany. And bring you back for questioning.
    Mr. Taylor. OK. Mr. Chairman, we are not going to get into 
a spitting contest here.
    Captain, for the record, based on your professional 
experience, for the record, I mean, in writing, when you get 
around to it, I would like to request of the Coast Guard what 
in particular can they point to as being a problem. Is it 
manpower? Has it been exacerbated by the need to call up port 
security units and send them to places like Kuwait? Were 
certain computers destroyed as a result of the hurricanes or 
other actions that have, we have taken too long to replace as a 
Nation? Again, if there are some things you can point to.
    I worked briefly in one of those offices in New York in 
1971. One of the things I really would like to know from the 
Coast Guard perspective, have we as Congress asked you all to 
look into too many people? Are there people who are so far down 
the food chain that maybe they don't need a full background 
investigation?
    I would welcome those suggestions. I know we did a lot of 
things in the wake of 9/11 that we thought were prudent at the 
time. Maybe we as a Nation overreacted. And if it is your 
professional opinion that we did that, I would like to hear so.
    So if the Chairman doesn't want to hear from you now, I am 
asking for the record, and I would like an answer in writing in 
a timely manner.
    Mr. Boustany. Captain, we don't want to put you on the spot 
here. I feel it is appropriate that Admiral Bone be part of 
this, with all due respect to him, sir. And I think the 
appropriate thing would be to relay those questions to Admiral 
Bone and respond to Mr. Taylor and the Committee in writing.
    Captain Fink. Yes, sir.
    Mr. Taylor. And my second question, Captain, would be, what 
other agencies, I would think that TSA has to perform similar 
type checks on pilots and flight crew personnel. Just in 
defense of the Coast Guard, I would be curious, how many people 
do they have to run background checks on, how many people do 
you have to run background checks on? What sort of resources do 
they have people-wise, what sort of resources do you have 
people-wise?
    And again, the issue of the port security units, I know 
that that mission has evolved a lot since the days when I did 
it. But port security men used to do things like that, and now 
I know you have got port security men doing things like running 
Boston Whalers in Kuwait. Who has picked up that mission? Has 
that been assigned to civilians primarily, with Coast Guard 
oversight, uniformed personnel oversight? Is it still performed 
by uniformed personnel?
    Again, these gentlemen have outlined some very valid 
concerns. And we want to help solve those problems. I believe 
everyone wants to solve these problems. We just need to know 
what we can do to help and where the bottlenecks are. So thank 
you, Mr. Chairman.
    Mr. Boustany. Thank you, Mr. Taylor.
    I will ask unanimous consent if you all want another round 
of questioning.
    We are pleased to welcome Mr. Diaz-Balart from Florida, and 
you are now recognized for five minutes for questioning.
    Mr. Diaz-Balart. Actually, Mr. Chairman, I just wanted to 
thank you for the hearing and at this point I have no 
questions. Thank you, sir.
    Mr. Boustany. I have one final question before we break up 
here. Congress gave the Coast Guard authority to grant 
temporary extension of existing merchant mariner credentials in 
the Coast Guard Hurricane Relief Act of 2005. It expired on 
February 28th of 2006. Similar authority allowing an additional 
one year extension was included as part of the Coast Guard and 
Maritime Transportation Act of 2006, which recently became law. 
Did the authority to grant mariners an extension that expired 
in February 2006 help reduce mariner shortage, the shortage of 
mariners? I would welcome anyone to answer that.
    Mr. Davis. Mr. Chairman, from organized labor's point of 
view, we have been very fortunate in that we don't really have 
a shortage of personnel, even with the Iraqi situation going on 
and that sort of thing, we have always been able to find enough 
seamen.
    But if I could, since the gentleman from Florida came in, 
if I could just raise one other additional point. That was in 
regard to the fact that there are a couple ports in Florida 
right now that require their own i.d. in order to get in and 
out of the port. One of the things in my statement was 
basically that we wanted to see the merchant mariner document 
supersede that, basically, with a biometric i.d., so that 
merchant mariners who go to various States, and sometimes could 
go to 10 States in 20 days, don't have to have 20 different 
i.ds, basically, to get through a port facility.
    Thank you.
    Mr. Boustany. Thank you. Mr. Autin, do you want to respond 
to that?
    Mr. Autin. Yes. It was such a short period of time that it 
was in place that it was very difficult to truly get 
quantitative numbers to see how effective it was. But just 
simply looking at it, it appears that if that was extended, it 
would give us help in the long run. We know of mariners, again, 
in our own company, that are sitting at home right now because 
they have extended beyond the grace period.
    Mr. Boustany. Did you all receive notice of the new Coast 
Guard authority when it was passed into law?
    Mr. Autin. At the time?
    Mr. Boustany. Yes.
    Mr. Autin. Yes.
    Mr. Boustany. You did, OK. How many mariners who wish to be 
in the work force and have expired licenses would therefore be 
affected by this extension? Do we have an estimate?
    Mr. Autin. Well, just looking inside of SEACOR Marine, 
figuring that approximately 20 percent of our fleet needs to 
renew their licenses, our mariners need to renew their licenses 
on an annual basis, we predict that right now, in looking 
inside of SEACOR Marine, there is probably approximately six 
people that could benefit.
    Mr. Boustany. Thank you. Captain Gedney?
    Captain Gedney. If I may, the hurricane not only has 
affected the one REC, but because of the movement and 
personnel, I believe it has affected all of the RECs. It would 
be helpful if the Committee could consider expanding the 
extension to assist all the mariners in the U.S.
    Mr. Boustany. Thank you.
    I have no further questions. Mr. Diaz-Balart.
    Mr. Diaz-Balart. I want to thank Mr. Davis for bringing 
that up. It is an issue that I have heard a lot back home. You 
have longshoremen and others who, as you know, Florida has a 
number of deepwater ports. Some of them are very close 
together. Particularly, for example, if you look at Dayton-
Broward. They have to have, in many cases, different i.ds, 
which, I am not an expert on these issues, but it would seem to 
me that if it is good for one port, knowing the security 
requirements that we have, it should be good for other ports, 
at least other ports in the State and hopefully other ports in 
the Country.
    So it is an issue I think that is relevant. It is an 
important issue. There are people who have to have multiple 
i.ds. It would seem to me that there has to be a better way.
    So I thank the gentleman for bringing that up, and thank 
you, Mr. Chairman, for recognizing me on that point. Thank you, 
sir.
    Mr. Boustany. Thank you.
    Mr. Taylor, any additional questions? No?
    Well, we want to thank the panel. Mr. Baird just arrived. 
Mr. Baird, do you have any questions for the panel?
    Mr. Baird. Because I wasn't able to attend the rest of it, 
I just want to say that the opening remarks I found very 
troubling. I think we need to make sure, I am sure people have 
addressed this already, but we need to take some action. If it 
is harming our industry to the level that I think it may well 
be, I think we need to do whatever we can to try to modify it.
    One of the frustrations I often have about these things is, 
what we really need is to have you folks here and the Coast 
Guard on the same panel and say, so what about what they just 
said, so we could do it the kind of problem solving way. But I 
hope that we will follow up as a Committee and do just that, 
based on what we have heard today. I thank the Chair and the 
Ranking Member for holding the hearing and thank our witnesses.
    Mr. Boustany. I thank the gentleman. That concludes the 
questioning. I want to thank the distinguished panel for your 
testimony and your wonderful answers. We appreciate your work 
and we will look forward to working with you to resolve some of 
these issues.
    With that, the Subcommittee is adjourned.
    [Whereupon, at 1:30 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0661.001
    
    [GRAPHIC] [TIFF OMITTED] T0661.002
    
    [GRAPHIC] [TIFF OMITTED] T0661.003
    
    [GRAPHIC] [TIFF OMITTED] T0661.004
    
    [GRAPHIC] [TIFF OMITTED] T0661.005
    
    [GRAPHIC] [TIFF OMITTED] T0661.006
    
    [GRAPHIC] [TIFF OMITTED] T0661.007
    
    [GRAPHIC] [TIFF OMITTED] T0661.008
    
    [GRAPHIC] [TIFF OMITTED] T0661.009
    
    [GRAPHIC] [TIFF OMITTED] T0661.010
    
    [GRAPHIC] [TIFF OMITTED] T0661.011
    
    [GRAPHIC] [TIFF OMITTED] T0661.012
    
    [GRAPHIC] [TIFF OMITTED] T0661.013
    
    [GRAPHIC] [TIFF OMITTED] T0661.014
    
    [GRAPHIC] [TIFF OMITTED] T0661.015
    
    [GRAPHIC] [TIFF OMITTED] T0661.016
    
    [GRAPHIC] [TIFF OMITTED] T0661.017
    
    [GRAPHIC] [TIFF OMITTED] T0661.018
    
    [GRAPHIC] [TIFF OMITTED] T0661.019
    
    [GRAPHIC] [TIFF OMITTED] T0661.020
    
    [GRAPHIC] [TIFF OMITTED] T0661.021
    
    [GRAPHIC] [TIFF OMITTED] T0661.022
    
    [GRAPHIC] [TIFF OMITTED] T0661.023
    
    [GRAPHIC] [TIFF OMITTED] T0661.024
    
    [GRAPHIC] [TIFF OMITTED] T0661.025
    
    [GRAPHIC] [TIFF OMITTED] T0661.026
    
    [GRAPHIC] [TIFF OMITTED] T0661.027
    
    [GRAPHIC] [TIFF OMITTED] T0661.028
    
    [GRAPHIC] [TIFF OMITTED] T0661.029
    
    [GRAPHIC] [TIFF OMITTED] T0661.030
    
    [GRAPHIC] [TIFF OMITTED] T0661.031
    
    [GRAPHIC] [TIFF OMITTED] T0661.032
    
    [GRAPHIC] [TIFF OMITTED] T0661.033
    
    [GRAPHIC] [TIFF OMITTED] T0661.034
    
    [GRAPHIC] [TIFF OMITTED] T0661.035
    
    [GRAPHIC] [TIFF OMITTED] T0661.036
    
    [GRAPHIC] [TIFF OMITTED] T0661.037
    
    [GRAPHIC] [TIFF OMITTED] T0661.038
    
    [GRAPHIC] [TIFF OMITTED] T0661.039
    
    [GRAPHIC] [TIFF OMITTED] T0661.040
    
    [GRAPHIC] [TIFF OMITTED] T0661.041
    
    [GRAPHIC] [TIFF OMITTED] T0661.042
    
                                    

</pre></body></html>
